No. _________
IN THE SUPREME COURT OF THE UNITED STATES
DANIEL T. SILVERIA, Petitioner
v.
STATE OF CALIFORNIA, Respondent
__________________
ON PETITION FOR A WRIT OF CERTIORARI
TO THE SUPREME COURT OF CALIFORNIA
___________________
CERTIFICATE OF SERVICE
I, Timothy J. Foley, a member of the Bar of this Court, hereby
certify that my business address is 770 L Street, 10th Floor, in the County
of Sacramento and the City of Sacramento California, Telephone (916)
322-2676; that on December 16, 2020, I served, pursuant to Supreme Court
Rule 29, one true copy of the MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS and PETITION FOR WRIT OF CERTIORARI
in the above-entitled matter on the following parties by placing same in an
envelope addressed as follows:
Daniel T. Silveria, #K-57200
CSP-SQ
NB S6-25
San Quentin, CA 94974

Arthur P. Beever
Deputy Attorney General
Office of the Attorney General
455 Golden Gate Avenue, Ste. 11000
San Francisco, CA 94102-7004
(415) 510-3761

Supreme Court of California
Attn: April Boelk
Automatic Appeals Unit Supervisor
350 McAllister Street, First Floor
San Francisco, CA 94102
(415) 865-7000

Mark E. Cutler
Attorney at Law
P.O. Box 172
Cool, CA 95614-0172
(530) 885-7718

1

Dennis A. Fischer
Law Offices of Dennis A. Fischer
825 Wilshire Boulevard, #717
Santa Monica, CA 90401
(310) 451-4815

Each envelope was then sealed and deposited in the United States
mail at Sacramento, California with first class postage thereon fully
prepaid. All persons required to be served have been served.
I declare under penalty of perjury under the laws of the State of
California that the foregoing is true and correct. Signed on December 16,
2020, at Sacramento, CA.
/s/
TIMOTHY J. FOLEY

Senior Deputy State Public Defender
Counsel of Record for Petitioner

2

